                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Unless California Air
                     Resources Board Fully
                     Complies With Laws and
                     Regulations, Emission
                     Reductions and Human Health
                     Benefits Are Unknown
                     Report No. 14-R-0130                    March 6, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Darren Schorer
                                                    Lela Wong




Abbreviations

CARB                   California Air Resources Board
CFR                    Code of Federal Regulations
DERA                   Diesel Emissions Reduction Act
EPA                    U.S. Environmental Protection Agency
FY                     Fiscal Year
NOx                    Nitrogen Oxide
NREC                   National Railway Equipment Company
OIG                    Office of Inspector General
OMB                    Office of Management and Budget


Cover photo:	     An example of a BNSF Railway Company switch-yard locomotive located at
                  the Hobart rail yard in Commerce, California. (EPA photo)



Hotline 	                                      Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

us through one of the following methods:       contact us through one of the following methods:


email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:	   EPA Inspector General Hotline        write:    EPA Inspector General 

          1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T 

          Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              14-R-0130
                                                                                                         March 6, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Unless California Air Resources Board Fully
The U.S. Environmental              Complies With Laws and Regulations, Emission
Protection Agency (EPA) Office      Reductions and Human Health Benefits Are Unknown
of Inspector General (OIG)
conducted this examination to        What We Found
determine whether the costs
claimed under cooperative           Our examination disclosed material weaknesses in 	         CARB did not fully
agreement 2A-00T13801               CARB’s compliance with laws, regulations, and the          comply with the
awarded under the American          terms and conditions of the cooperative agreement.         Energy Act and
Recovery and Reinvestment                                                                      cooperative agreement
                                    Specifically, CARB did not comply with the                 requirements, resulting
Act of 2009 to the California Air   requirement of the cooperative agreement and the
Resources Board (CARB)                                                                         in potential
                                    Energy Policy Act of 2005 to scrap or remanufacture        overpayment of
were reasonable, allowable and      the old engines. CARB also did not accurately report       $8,866,000.
allocable in accordance with        jobs created or retained or provide actual emissions
applicable laws, regulations,       reduction calculations, as required under the cooperative agreement. In addition,
and cooperative agreement           CARB paid contract costs that were not in accordance with contract terms.
terms and conditions. The OIG
also sought to determine            CARB completed the locomotive repower according to the workplan. However,
whether cooperative agreement       CARB has not demonstrated that it met the cooperative agreement objective for
objectives were met.                achieving significant emissions reduction as CARB did not provide actual
                                    emissions benefit calculations.
This report addresses the
following EPA themes:                Recommendations and Corrective Actions
	 Addressing climate change        For the contract terms issue, we recommended that the Region 9 Regional
   and improving air quality.       Administrator disallow and recover ineligible costs of $94,109 claimed under the
	 Making a visible difference      cooperative agreement and require CARB to establish internal controls prior to
   in communities across the        any future awards. In response to draft report, CARB repaid the $94,109 to the
   country.                         EPA. CARB’s contractor—BNSF Railway Company—also signed an agreement
                                    on November 18, 2013, to scrap or remanufacture the replaced engines. We
                                    recommend that the region verify that CARB and BNSF comply with the
                                    agreement and document the scrap or remanufacture. The region should recover
                                    the federal share of $8,771,891 claimed in the event CARB violates the
                                    November 18, 2013, agreement.

                                    We also made recommendations related to jobs reported as created or retained,
                                    developing a more accurate calculation of project results based on actual fuel
                                    usage, and adjusting the reporting of CARB’s project results. In response to the
                                    draft report, CARB submitted the job report corrections. Region 9 and CARB
                                    disagreed with the two recommendations relating to project results.
For further information,
contact our public affairs office
                                     Noteworthy Achievements
at (202) 566-2391.
                                    CARB and the BNSF Railway Company repowered 11 locomotives instead of the
The full report is at:              eight required by the cooperative agreement because of cost reductions
www.epa.gov/oig/reports/2014/       achieved by the manufacturer and a higher contractor contribution percentage
20140306-14-R-0130.pdf              than what was required under the agreement. The subcontractor also
                                    accomplished construction of the 11 locomotives in less than 4 months in order to
                                    meet the Recovery Act deadline of September 30, 2010.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                 THE INSPECTOR GENERAL




                                            March 6, 2014

MEMORANDUM

SUBJECT:      Unless California Air Resources Board Fully Complies with Laws and Regulations,
              Emission Reductions and Human Health Benefits Are Unknown
              Report No. 14-R-0130

FROM:         Arthur A. Elkins Jr.

TO:	          Jared Blumenfeld, Regional Administrator
              Region 9

This is our report on the subject examination conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe problems the
OIG has identified and corrective actions the OIG recommends. This report represents the opinion of the
OIG and does not necessarily represent the final EPA position. In accordance with established audit-
resolution procedures, EPA managers will make final determinations on matters in this report.

Action Required

In accordance with EPA Manual 2750, you are required to provide us your proposed management
decision on the findings and recommendations contained in this report before you formally complete
resolution with the recipient. Your proposed management decision is due in 120 days, or on July 7, 2014.
To expedite the resolution process, please email an electronic version of your proposed management
decision to adachi.robert@epa.gov.

Your response will be posted on the OIG’s public website, along with our memorandum commenting on
your response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 or the Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want to be released to the public; if your response
contains such data, you should identify the data for redaction or removal along with corresponding
justification. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Rich Eyermann,
acting Assistant Inspector General for Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Robert Adachi, Product Line Director, at (415) 947-4537 or adachi.robert@epa.gov.
Unless California Air Resources Board 	                                                                                     14-R-0130
Fully Complies With Laws and Regulations, 

Emission Reductions and Human Health Benefits Are Unknown 



                                  Table of Contents
Chapters
   1	   Independent Accountant’s Report....................................................................                        1


   2	   Introduction ........................................................................................................      4


                Purpose .......................................................................................................    4     

                Background .................................................................................................       4     

                Noteworthy Achievements ...........................................................................                5     


   3	   Costs Claimed Were Not in Accordance With Contract Provisions..............                                                6


                Costs Billed by the Contractor Exceeded Contribution Percentage ............                                       6

                Conclusion...................................................................................................      8     

                Recommendations ......................................................................................             8     

                EPA and Recipient Comments ....................................................................                    8

                OIG Response .............................................................................................         8     


   4	   Noncompliance With Laws, Regulations and 

        Cooperative Agreement Conditions .................................................................                         9


                CARB Did Not Comply With Requirement to Scrap or Remanufacture ......                                              9

                CARB Jobs Report Did Not Comply With OMB Requirements ...................                                         11 

                Recommendations ......................................................................................            12 

                EPA and Recipient Comments ...................................................................                    12 

                OIG Response .............................................................................................        13     


   5	   CARB Did Not Provide Actual Emissions Reduction Calculations ...............                                              14 


                CARB Calculated Emissions Reductions Using Estimated Fuel Usage......                                             14 

                Conclusion...................................................................................................     15     

                Recommendations ......................................................................................            15 

                EPA and Recipient Comments ...................................................................                    16 

                OIG Response .............................................................................................        16     


   Status of Recommendations and Potential Monetary Benefits..............................                                        17




Appendices
   A	   Agency’s Comments on Draft Report ..............................................................                          18 

   B	   CARB’s Comments on Draft Report .................................................................                         24 

   C	   Distribution .........................................................................................................    30 

                                 Chapter 1

               Independent Accountant’s Report
            As part of our oversight of assistance agreement awards made by the
            U.S. Environmental Protection Agency (EPA), the EPA’s Office of Inspector
            General (OIG) examined the costs claimed under Cooperative Agreement No.
            2A-00T13801 awarded to the California Air Resources Board (CARB). The OIG
            conducted the examination to determine whether the costs claimed under the
            cooperative agreement were reasonable, allowable and allocable in accordance
            with the Code of Federal Regulations (CFR) under 40 CFR Part 31, Uniform
            Administrative Requirements for Grants and Cooperative Agreements to State and
            Local Governments; 2 CFR Part 225, Cost Principles for State, Local, and Indian
            Tribal Governments (Office of Management and Budget Circular A-87); and the
            terms and conditions of the cooperative agreement. We also reviewed CARB’s
            accomplishment of the cooperative agreement’s objectives and compliance with
            the following American Recovery and Reinvestment Act of 2009 requirements:

                  Buy American requirement under Section 1605.
                  Davis-Bacon Act wage requirements under Section 1606.
                  Job reporting requirements under Section 1512.

            By accepting the funding provided through the cooperative agreement, CARB is
            responsible for complying with these requirements. Our responsibility is to
            express an opinion on CARB’s compliance based on our examination.

            We conducted our examination in accordance with generally accepted
            government auditing standards issued by the Comptroller General of the United
            States and the attestation standards established by the American Institute of
            Certified Public Accountants. We examined, on a test basis, evidence supporting
            management’s assertions and performed such other procedures as we considered
            necessary in the circumstances. We believe that our examination provides a
            reasonable basis for our opinion.

            We conducted our audit work between March 11, 2013, and September 25, 2013.
            We contacted representatives from the EPA’s Region 9 to gather information on
            criteria relevant to the cooperative agreement, obtain an understanding of the
            proposed project, and gather information concerning CARB’s performance.
            Specifically, we performed the following steps:

                  Reviewed the EPA’s project and cooperative agreement files.
                  Reviewed the application associated with the award.
                  Reviewed award documents, including amendments.
                  Reviewed CARB’s original and revised work plans.
                  Conducted interviews with EPA Region 9 staff.


14-R-0130                                                                                     1
            On March 11, 2013, we made a site visit to CARB’s office in
            Sacramento, California, to conduct interviews and obtain documentation
            needed to address our objectives. We performed the following steps:

               	 Reviewed recipient cooperative agreement files and interviewed recipient
                  personnel to gain an understanding of the accounting system, internal
                  controls, and the costs reported and work performed under the cooperative
                  agreement.
               	 Reviewed CARB’s request for proposal, bids submitted, contracts and
                  subcontracts.
               	 Reviewed costs claimed under the cooperative agreement to determine
                  whether the costs met applicable requirements under 40 CFR Part 31,
                  2 CFR Part 225, and the terms and conditions of the cooperative
                  agreement.
               	 Reviewed CARB’s compliance with Recovery Act requirements.
               	 Conducted a site visit to the BNSF Railway Company’s rail yards to verify
                  the existence of locomotives and completion of work in accordance with
                  the work plan.
               	 Reviewed supporting documentation for reported emissions reductions.

            CARB is responsible for establishing and maintaining effective internal control
            over compliance with the requirements of 40 CFR Part 31, 2 CFR Part 225, the
            Recovery Act, and the terms and conditions of the cooperative agreement.
            In planning and performing our examination, we considered CARB’s internal
            control over compliance with the requirements listed above as a basis for
            designing our examination procedures for the purpose of expressing our opinion
            on compliance, but not for the purpose of expressing an opinion on the
            effectiveness of internal control over compliance. Accordingly, we do not express
            an opinion on the effectiveness of CARB’s internal control over compliance.

            Our consideration of internal control over compliance was for the limited purpose
            described in the preceding paragraph and was not designed to identify all
            deficiencies in internal control over compliance that might be significant
            deficiencies or material weaknesses; therefore, there can be no assurance that all
            deficiencies, significant deficiencies or material weaknesses have been identified.

            A significant deficiency is a deficiency in internal control, or combination of
            deficiencies, that adversely affects that entity’s ability to initiate, authorize,
            record, process or report data reliably in accordance with the applicable criteria or
            framework, such that there is more than a remote likelihood that a misstatement of
            the subject matter that is more than inconsequential will not be prevented or
            detected. A material weakness is a significant deficiency, or combination of
            significant deficiencies, that results in more than a remote likelihood that material
            misstatement of the subject matter will not be prevented or detected.



14-R-0130                                                                                      2
            Our examination disclosed material weaknesses in CARB’s compliance with
            laws, regulations and cooperative agreement requirements. In particular, CARB:

                  Did not comply with the requirement of the cooperative agreement and the
                   Energy Policy Act to scrap or remanufacture the old engines.
                  Did not accurately report jobs created or retained.
                  Did not provide actual emissions reduction calculations.

            Our examination also disclosed a significant deficiency in internal controls that
            resulted in CARB paying contract costs that were not in accordance with contract
            terms.

            As a result of the issues noted above, we questioned the entire $8,866,000
            claimed under the cooperative agreement. In our opinion, CARB has not
            complied with the terms and conditions of cooperative agreement 2A-00T13801.

            CARB completed the locomotive repower according to the workplan.
            Specifically, CARB repowered 11 locomotives (three more than the eight required
            under the cooperative agreement) using EPA-verified technology, and the
            repowered locomotives were operating in the required area. However, CARB has
            not demonstrated that it met the cooperative agreement objective for achieving
            significant emissions reduction as CARB did not provide actual emission benefit
            calculations.




            Robert K. Adachi
            Director, Forensic Audits
            March 6, 2014




14-R-0130                                                                                    3
                                 Chapter 2

                                  Introduction
Purpose
            The EPA OIG conducted this examination to determine whether the costs claimed
            under cooperative agreement 2A-00T13801 were reasonable, allocable and
            allowable in accordance with applicable federal requirements and the terms and
            conditions of the cooperative agreement. The OIG also reviewed CARB’s
            compliance with select Recovery Act requirements and the accomplishment of
            cooperative agreement objectives.

Background
            The Diesel Emissions Reduction Act (DERA) was signed into law in August 2005
            under Title VII, Subtitle G, of the Energy Policy Act of 2005. DERA authorized
            $200 million per year from fiscal years (FYs) 2007 through 2011 (a total of
            $1 billion). The money enabled the EPA to fund programs to achieve significant
            reductions in diesel emissions (e.g., tons of pollution produced and diesel-
            emission exposures, particularly from fleets operating in areas designated by the
            agency as poor air quality areas). Of the authorized DERA amount, 70 percent is
            authorized for competitive national grants and low-cost revolving loans, as
            determined by the EPA Administrator. The remaining 30 percent is for state
            grants and loan programs. Congress appropriated a total of $219.1 million for the
            EPA under DERA for FYs 2008 through 2011. Congress appropriated an
            additional $300 million to the EPA in FY 2009 for DERA grants under the
            Recovery Act.

            On July 10, 2009, the EPA used Recovery Act funds to award cooperative
            agreement 2A-00T13801 to CARB under the National Clean Diesel Funding
            Assistance Program. This award authorized federal funds of $8,888,888 to
            repower eight existing switch-yard locomotives with new Tier 3 nonroad engines.
            Total project costs were $12,000,000, which included the authorized federal funds
            and the recipient’s share of $3,111,112. The project period was June 15, 2009,
            through December 31, 2010.

            CARB proposed operating the repowered locomotives within rail yards located in
            the South Coast Air Basin. The EPA designated the South Coast Air Basin as a
            particulate matter nonattainment area. CARB conducted health risk assessments
            of 18 major rail yards and determined that 90 percent or more of switch-yard
            locomotive emissions are generated in and around large rail yards in California.
            CARB also determined that switch-yard locomotives can represent at least half of
            the locomotive diesel particulate matter within and around rail yards.


14-R-0130                                                                                   4
               CARB estimates that a new locomotive engine could potentially provide up to a
               90-percent reduction in nitrogen oxide (NOx) and particulate matter emissions
               compared to an older engine. Specifically, a repowered locomotive could provide
               reductions of up to 0.045 tons per day for NOx emissions and 0.0018 tons per day
               for particulate matter emissions. A 90-percent reduction could provide substantial
               cancer and noncancer health benefits to communities in the South Coast Air
               Basin, which consists of parts of Los Angeles and San Bernardino counties and all
               of Orange County (see figure 1 below).

 Figure 1: Map of the South Coast Air Basin




Source: CARB website at www.arb.ca.gov/msprog/onroad/porttruck/maps/scab7map.pdf.


Noteworthy Achievements
               CARB and BNSF repowered three locomotives in addition to the eight required
               by the cooperative agreement. In addition, the federal share of the project cost
               was $22,888 less than the authorized funding of $8,888,888. The additional
               repowered locomotives and the reduction in the federal share was because of cost
               reductions achieved by the manufacturer and because BNSF contributed funding
               in excess of the recipient’s share of 25.93 percent required by the cooperative
               agreement. The subcontractor also accomplished construction of the
               11 locomotives in less than 4 months in order to meet the Recovery Act deadline
               of September 30, 2010.




14-R-0130                                                                                      5
                                   Chapter 3

            Costs Claimed Were Not in Accordance 

                   With Contract Provisions 

            Our examination disclosed that CARB paid contractor costs that were not in
            compliance with contract provisions because CARB did not monitor contractor
            billings to ensure compliance. Specifically, the contractor billed costs in excess of
            CARB’s share of the total costs, which included a remote-control system that was
            not for the locomotives under the cooperative agreement. As a result, we
            questioned $94,109 of the $8,866,000 claimed under the cooperative agreement.

Costs Billed by the Contractor Exceeded Contribution Percentage
            Costs billed by BNSF to CARB were in excess of CARB’s share of the actual
            costs incurred by BNSF’s subcontractor. The contract between CARB and BNSF
            states that CARB agreed to reimburse BNSF for actual expenditures incurred in
            accordance with the rates specified in the contract. The contract provided for a
            cost of $1,430,000 for each locomotive, based on a price quote received from the
            National Railway Equipment Company (NREC). The contract also included a
            BNSF contribution percentage that ranged from 35 to 50 percent. Specifically,
            BNSF agreed to pay 50 percent of the costs for six locomotives, 40 percent of the
            costs for one locomotive, and 35 percent of the costs for four locomotives. Based
            on these contract terms, total BNSF contribution is $6,864,000 and CARB or
            federal contribution is $8,866,000.

            Once the work started, BNSF billed CARB for costs based on invoices submitted
            by NREC for each locomotive. BNSF also billed CARB for materials that BNSF
            provided to NREC (at no cost to the subcontractor) for use in the construction of
            the locomotives. BNSF billed NREC’s costs using the contract-required
            contribution percentages. However, BNSF did not invoice CARB for the BNSF-
            provided materials using the contract-required contribution percentages. In
            addition, BNSF invoiced CARB for a remote-control system that was not for the
            locomotives repowered under the cooperative agreement.

            We calculated the total cost for each locomotive based on the invoices submitted
            by NREC and BNSF. We limited eligible costs for each locomotive to the
            $1,430,000 rate noted in the contract between CARB and BNSF. The federal
            share we calculated is shown in table 1.




14-R-0130                                                                                       6
            Table 1: OIG’s calculation of federal share
                                                                           Federal
                                                   Eligible cost        percentage of           Federal
            Locomotive            Total cost       per contract         eligible costs           share
                 1293             $1,502,111        $1,430,000                50%               $715,000
                 1294               1,505,807         1,430,000               50%                715,000
                 1300               1,414,206         1,414,206               50%                707,103
                 1301               1,415,209         1,415,209               65%                919,886
                 1302               1,394,614         1,394,614               60%                836,768
                 1303               1,423,281         1,423,281               65%                925,133
                 1304               1,417,316         1,417,316               65%                921,255
                 1305               1,414,495         1,414,495               65%                919,422
                 1306               1,412,752         1,412,752               50%                706,376
                 1307               1,411,838         1,411,838               50%                705,919
                 1308               1,400,058         1,400,058               50%                700,029
                               $15,711,687                                                    $8,771,891
             Source: Total costs are from invoices submitted by NREC and BNSF. Federal percentages
             are from the contract between CARB and BNSF. Eligible cost per contract and the federal
             share are based on the OIG’s analysis of the data.

            The costs claimed and questioned are summarized below:

            Table 2: Summary of questioned costs
                                      Cost category                                   Amount
            Total project costs a                                                   $15,711,687
                              b
            Amount claimed                                                            8,866,000
                                                                             c
            Federal share based on contribution share per locomotive                  8,771,891
                                      d
            Cumulative cash draw                                                      8,866,000
                                      c
               Amount due EPA                                                           $94,109

            Source: See notes below.
               a. 	 Total project costs amount is based on invoices BNSF submitted to CARB.
               b. 	 Amount claimed is from the final federal financial report that CARB submitted 

                    to the EPA under the cooperative agreement. 

               c. 	 Federal share and amount due EPA are based on the OIG’s analysis of the 

                    data provided by CARB. 

               d. 	 Cumulative cash draw is from EPA and CARB’s accounting records.

            CARB staff agreed with the total costs and percentages provided in table 1 above,
            but believed the intent of the contract with BNSF was to reimburse BNSF for total
            project costs without a ceiling amount for each locomotive. CARB staff said the
            rate cited in the contract refers to the contribution percentage, not the cost per
            locomotive. CARB believes the calculation for eligible costs should be based on
            the total cost of the locomotive without the $1,430,000 ceiling.


14-R-0130                                                                                                  7
Conclusion
            The OIG’s analysis determined that eligible costs for each locomotive were
            limited to the contract cost of $1,430,000 agreed to by CARB and BNSF. CARB
            staff said the intent of the contract was to apply CARB’s contribution percentage
            to the total cost of the individual locomotives, regardless of whether the cost
            exceeded $1,430,000. However, the contract does not specifically indicate that the
            rates only apply to contribution percentages. Therefore, we believe the rates in the
            contract refer to both the cost ceiling and the contribution percentage for each
            locomotive. We believe $94,109 is ineligible.

Recommendations
            We recommend that the Region 9 Regional Administrator:

               1.	 Recover the ineligible amount of $94,109 claimed under the cooperative
                   agreement from CARB.

               2.	 Require CARB to establish internal controls prior to any future awards, to
                   ensure that contractor billings comply with contract terms and conditions.

EPA and Recipient Comments
            The OIG received comments on the draft report from Region 9 and CARB, as
            shown in appendices A and B, respectively. Region 9 and CARB also provided
            supplemental documentation as support for their comments, and although not
            included in this report the supplemental documentation is available upon request.

            Region 9 agreed with the recommendations and said that it will work with CARB
            to ensure that contractor billings comply with EPA requirements and contract
            terms and conditions. CARB acknowledged that BNSF erroneously billed a
            remote control system that was not used for the locomotives repowered under the
            project. However, CARB disagreed that $94,109 of the project costs is ineligible.
            CARB said the issue is whether the contract ceiling is on each locomotive or on
            the total projects. CARB believes it should be given the discretion to determine
            the intent and interpretation of the contract provisions and managed the contract
            based on a not-to-exceed total project cost ceiling of $8,866,000. However,
            CARB acknowledges the basis for the questioned costs and the OIG’s rationale.

OIG Response
            The OIG’s position remains unchanged. Region 9 concurred with our
            recommendations. Although CARB disagreed that the $94,109 is ineligible,
            CARB repaid the $94,109 to the EPA on January 9, 2014. We acknowledge the
            repayment and consider recommendation 1 resolved.



14-R-0130                                                                                       8
                                  Chapter 4

            Noncompliance With Laws, Regulations 

            and Cooperative Agreement Conditions 

            As part of our examination, we reviewed CARB’s compliance with applicable
            laws, regulations, and terms and conditions of the cooperative agreement.
            We found that CARB and BNSF have not scrapped or remanufactured old
            engines taken from the repowered locomotives in accordance with the cooperative
            agreement and Energy Policy Act requirements because CARB allowed BNSF the
            option to ban the old engines from operating in California as an alternative to
            scrapping. CARB said it did not require BNSF to scrap or remanufacture the old
            engines because of the unique nature of locomotives. CARB also believed the ban
            option was approved by the EPA. The potential use of the old engines by BNSF
            outside of California could offset emissions reductions gained by the newer
            engines and result in no net environmental benefit being derived from the project.
            As a result, we questioned the $8,866,000 claimed under the cooperative
            agreement. Since $94,109 of the $8,866,000 claimed has already been questioned
            in chapter 3 of this report, we are only questioning here the remaining $8,771,891.

            In addition, CARB did not report jobs created or retained in accordance with
            Office of Management and Budget (OMB) guidance. CARB reported jobs created
            based on total hours expended on the project. OMB guidance requires that jobs
            funded partially with Recovery Act funds only be counted based on the proportion
            funded by the Recovery Act. During the course of the audit, CARB recalculated
            the jobs created and agreed to work with EPA Region 9 to revise the number of
            jobs reported.

CARB Did Not Comply With Requirement to Scrap or Remanufacture

            CARB did not comply with requirements of the cooperative agreement and
            Energy Policy Act to scrap or remanufacture the older locomotive engines. CARB
            allowed BNSF the option to ban the use of the old engines in California as an
            alternative because of the unique nature of locomotives. However, this option is
            not provided for by the Energy Policy Act or the cooperative agreement.

            CARB Provided Alternative to Scrapping and/or Remanufacturing

            CARB’s contract with BNSF to repower switch-yard locomotives provided the
            option to ban or scrap older, existing engines from California operations. The
            contract states that to use the ban option, the engines must be removed from older,
            existing locomotives. The railroad company must also make sure that the original
            older engines will not operate in California. The contract does not specifically
            require remanufacturing of older engines under the ban option.


14-R-0130                                                                                    9
            In the project final report, CARB reported that BNSF retained possession of the
            engines taken from the repowered locomotives. The report states that the engines
            will be upgraded to the best possible emissions and performance standards as the
            need arises. The engines will be placed in locomotives that will be banned from
            operating in California. CARB stated that BNSF will notify CARB if an older
            engine is placed in another locomotive. CARB can then track the locomotive to
            ensure the locomotive is not observed operating in California during rail yard
            inspections, field surveys or photographic tracking.

            BNSF Requested Ban Option

            CARB staff said BNSF raised concerns about the lack of flexibility when it comes
            to provisions for the scrappage and remanufacture of older engines. BNSF
            requested that CARB provide the option to ban the engines from California,
            which is consistent with CARB’s other funding programs using incentives
            (e.g., Proposition 1B and the Carl Moyer Program).

            CARB believes that unique engine costs, the need to reuse engines for rebuilds,
            and the ability to track locomotive operations provides the basis for the option to
            ban older engines from California instead of scrapping or remanufacturing them.
            CARB staff stated that due to the cost and size of locomotive engines, the engines
            that are sent to scrap yards are typically overhauled or remanufactured. CARB
            believes that banning the engines was an acceptable scrapping method in
            accordance with the language of programmatic condition 10 of the cooperative
            agreement.

            CARB Believed EPA Region 9 Approved the Ban Option

            CARB believes that EPA Region 9 provided oral approval for the option to ban
            the locomotives and that the approval is consistent with the programmatic
            language of the cooperative agreement. CARB staff also said that the EPA had
            opportunities to review CARB’s proposed ban option in its request for proposal
            and contract with BNSF but the EPA did not question the option.

            EPA Region 9 staff did not recall approving the ban option. Region 9 staff said
            the options are well defined in the cooperative agreement and banning
            locomotives is not an option.

            Energy Policy Act and Cooperative Agreement Do Not Provide
            Ban Option

            Neither the Energy Policy Act nor the cooperative agreement allows for the
            option to ban the use of older engines as described by CARB. The Energy Policy
            Act, Title VII, subtitle G, section 793(d)(3), allows use of grant funds for certified
            engine configurations. Section 791(2) requires that in the case of an engine



14-R-0130                                                                                      10
            configuration replacing an existing engine, the replaced engine should be returned
            to the supplier for remanufacturing to a more stringent set of engine emissions or
            be designated as scrappage. Programmatic condition 10 of the cooperative
            agreement requires that the engine being replaced be scrapped within 90 days of
            the replacement or be returned to the original engine manufacture for
            remanufacturing to a cleaner standard.

            Programmatic condition 10 provides for other acceptable scrapping methods with
            EPA approval. However, the condition defines scrappage “as a permanently
            disabled engine or vehicle, no longer suitable for use.” CARB’s option to ban the
            older engines did not result in permanently disabling the engines. As explained in
            the second paragraph of the subsection “CARB Provided Alternative to Scrapping
            and/or Remanufacturing,” BNSF has not permanently disabled the engines but
            retains possession with the possibility of using the engines at a later date.

            Conclusion

            CARB and BNSF have not scrapped or remanufactured the engines taken from
            the repowered locomotives in accordance with the cooperative agreement or
            Energy Policy Act requirements. The ban option CARB allowed is not compliant
            with the Energy Policy Act or the cooperative agreement. CARB staff stated that
            the cooperative agreement did not provide a specific time frame for the
            remanufacture. In our opinion, although the cooperative agreement did not
            provide a specific time frame for remanufacturing the old engines, the cooperative
            agreement stated that to be considered a repower, the purchase of new engines
            must be accompanied by the scrappage or remanufacture of the old engines. In
            addition, the cooperative agreement states that evidence of appropriate disposal is
            required in a final assistance agreement report submitted to the EPA. We believe
            that the cooperative agreement requirements express intent to complete
            remanufacture prior to close-out of the cooperative agreement.

            In response to the audit, CARB and BNSF signed a written agreement on
            November 18, 2013, to scrap or remanufacture the 11 older locomotive engines
            within 18 months of the agreement date. If there is a delay in the scrap or
            remanufacturing process due to unforeseen circumstances, BNSF agreed to
            inform CARB in writing the reason for the delay at least 90 days prior to the end
            date of the scrap/remanufacture. BNSF may request a time extension in writing
            with the consent of all signatories.

CARB Jobs Report Did Not Comply With OMB Requirements
            CARB incorrectly reported the number of jobs created and retained under the
            Recovery Act. Recovery Act Section 1512 requires each recipient receiving
            Recovery Act funds from a federal agency to submit a quarterly report with an
            estimate of the number of jobs created and the number of jobs retained by the
            project. OMB issued various guidance documents to implement Recovery Act


14-R-0130                                                                                   11
            requirements. On December 18, 2009, OMB issued guidance M-10-8 to update,
            among other things, the method for estimating the number of jobs created and
            retained. The guidance defines jobs created or retained as those jobs funded in the
            quarter by the Recovery Act. Jobs funded partially with Recovery Act funds will
            only be counted based on the proportion funded by the Recovery Act.
            CARB reported the number of jobs created using total hours NREC worked on
            the locomotives. Recovery Act funds only provided approximately 56 percent of
            the funding for the project. As a result, CARB overstated the number of jobs
            reported. CARB recalculated the jobs created and has agreed to work with the
            EPA to revise the number of jobs reported.

Recommendations
            We recommend that the Region 9 Regional Administrator:

               3.	 Verify that CARB and BNSF scrap or remanufacture the old engines in
                   accordance with the November 18, 2013, agreement.

               4.	 Require CARB to provide documentation that the replaced engines were
                   scrapped or remanufactured in accordance with the November 18, 2013,
                   agreement.

               5.	 Recover the federal share of $8,771,891 claimed in the event CARB does
                   not scrap or remanufacture the engines in accordance with November 18,
                   2013, agreement.

               6.	 Require CARB to revise the jobs reported as created or retained to reflect
                   the number of jobs funded by the Recovery Act.

EPA and Recipient Comments
            Region 9 concurred with the recommendations. CARB concurred with
            recommendation 6, but did not state whether it concurred with recommendations
            3 to 5. CARB reiterated that it was clear in its intent to allow BNSF to ban the
            engines from operation in California and that the cooperative agreement and the
            Energy Policy Act provided the flexibility to include alternatives to scrappage. In
            the draft report, we recommended that the Region 9 Regional Administrator
            require CARB to scrap or remanufacture the replaced engines in accordance with
            the Energy Policy Act and the terms and conditions of the cooperative agreement.
            In response to the recommendation, CARB and BNSF signed a written agreement
            on November 18, 2013, to scrap or remanufacture the 11 older locomotive
            engines within 18 months of the agreement date. If there is a delay in the scrap or
            remanufacturing process due to unforeseen circumstances, BNSF agreed to
            inform CARB in writing the reason for the delay at least 90 days prior to the end
            date of the scrap/remanufacture. BNSF may request a time extension in writing
            with the consent of all signatories. Region 9 and EPA headquarters support the


14-R-0130                                                                                    12
            agreement. Region 9 said it will continue to work with CARB to track progress.
            Region 9 said the EPA does not anticipate the need to recover $8,771,891 based
            on the terms of the agreement between CARB and BNSF. However, if BNSF
            does not properly scrap or remanufacture the locomotives in compliance with the
            terms and conditions of the agreement, Region 9 will seek to recover grant funds
            from CARB.

            To address recommendation 6, CARB provided the revised number of jobs
            created and retained and Region 9 said it is in the process of reporting revised
            numbers.

OIG Response
            We acknowledge the November 18, 2013, written agreement from BNSF to scrap
            or remanufacture the locomotive. We agree with Region 9’s plan to track progress
            until the recommendations are fully resolved. In the event CARB or BNSF does
            not scrap or remanufacture the engines as required by the agreement, Region 9
            should recover the $8,771,891 questioned.

            Based on our research, Recovery Act Section 1512 quarterly reports for prior
            periods cannot be amended. Since CARB has submitted the revised report and
            explanations for the error, we consider recommendation 6 resolved.




14-R-0130                                                                                      13
                                 Chapter 5

                CARB Did Not Provide Actual 

              Emissions Reduction Calculations 

            CARB did not provide actual emission benefit calculations as required by the
            cooperative agreement. CARB staff said emissions reductions are based on
            estimates of fuel usage because Class I railroads do not calculate or estimate
            individual locomotive fuel consumption. As a result, CARB does not have
            reasonable assurance that the repowered locomotives are achieving projected
            emissions reductions and human-health benefits. Further, DERA program results
            may be overstated or understated.

CARB Calculated Emissions Reductions Using Estimated Fuel Usage
            For the final report, CARB calculated a range of emissions reductions for the
            repowered locomotives based on estimated annual fuel usage and EPA-certified
            emission factors for NOx and particulate matter. CARB used the emission
            calculation methodology from California’s Carl Moyer Program criteria and
            guidelines. According to Region 9, the Carl Moyer guidelines are the EPA’s
            guidelines. The Carl Moyer methodology allows emissions reductions to be
            calculated based on hours of operation, fuel consumption or miles traveled.
            CARB used the fuel-consumption method, which uses the gallons per year and
            emission factors, to determine the emissions reductions.

            CARB staff stated they used several methods to determine an annual fuel-
            consumption rate for switch-yard locomotive engines. For older engines, CARB
            used the hourly fuel rate and estimated annual operation hours. CARB also
            estimated annual fuel usage based on a 2004 inventory of intrastate locomotives
            and the average fuel consumed. CARB estimated fuel usage for newer switch-
            yard locomotives using a demonstration study of a Tier 4 locomotive in the South
            Coast Air Basin. CARB also used fuel-consumption data provided by BNSF for
            switch-yard locomotives operating in Texas. Based on these data, CARB’s
            estimated fuel usage ranges from 40,000 to 50,000 gallons per year for older
            locomotives and 30,000 to 40,000 gallons per year for newer locomotives.

            For the project final report, CARB used a range of potential reductions for NOx
            and particulate matter based on the fuel usage estimates noted above. Estimated
            NOx emissions ranged from 0.047 to 0.026 tons per day. CARB’s estimated
            particulate matter emissions ranged from 0.002 to 0.0011 tons per day. The
            difference between the high end of the range and the low end represents a
            45-percent variance. Table 3 summarizes the emissions reductions calculations.



14-R-0130                                                                                     14
             Table 3: CARB’s calculation of potential emissions reductions
                                                               High end   Low end
                                                               of range   of range   Variance
             Gallons per year (old engines)                     50,000    40,000
             Gallons per year (new engines)                     40,000    30,000
             NOx emissions (tons/day/locomotive)                0.047      0.026       45%
             Particulate emissions (tons/day)                   0.002     0.0011       45%

             Source: Project final report submitted by CARB.

            The cooperative agreement was expected to provide potential reductions of
            approximately 0.045 and 0.0018 tons per day of NOx and particulate matter,
            respectively. However, as illustrated by the data provided by CARB, fuel usage
            varies significantly and the project may not achieve the emissions reduction target.

            The cooperative agreement states the recipient will include “actual” emissions
            benefit calculations in the final report. However, CARB has not required BNSF to
            provide actual fuel consumption for the 11 locomotives repowered under the
            cooperative agreement. CARB stated that Class I railroads do not calculate or
            estimate individual locomotive diesel-fuel consumption in normal operations
            because diesel-fuel consumption is normally calculated on a national basis.
            BNSF’s proposals stated that fuel records for currently operating switch
            locomotives in its rail yards are not maintained. CARB staff said it is not realistic
            to require BNSF to provide actual fuel usage, and the staff also believes that the
            use of estimates provides an adequate surrogate for actual data.

Conclusion
            CARB calculated potential emissions reductions for the repowered locomotives
            based on estimates of fuel usage because actual fuel-usage data for individual
            locomotives is not available. CARB provided a range of emissions reductions
            based on estimated fuel usage. Unless CARB can provide actual fuel usage, the
            EPA does not have reasonable assurance that the project will achieve projected
            emissions reductions or expected environmental results and human-health benefits.

Recommendations
            We recommend that the Region 9 Regional Administrator:

               7.	 Work with CARB to start collecting actual fuel usage data and develop a
                   more accurate calculation of project results based on actual fuel usage.

               8.	 Adjust DERA program reporting of CARB project results to reflect
                   recalculated results.




14-R-0130                                                                                       15
EPA and Recipient Comments
            Region 9 and CARB disagreed with the finding and recommendations. Region 9
            said CARB provided the emission reduction calculations based on the most
            accurate data available. CARB said it followed the industry standard practice by
            using the EPA’s emission reduction calculation methodology, which relies on fuel
            consumption estimates and EPA-certified emission factors for NOx and
            particulate matter.

            Region 9 explained that the EPA’s emission quantification models used various
            assumptions to generate the emission factors for locomotive engines. Region 9
            further said that estimates, not actual or quantifiable emission, are used in the
            EPA’s engine rules as well as the tool used for quantifying the emissions reductions
            for DERA projects. Region 9 and CARB said that railroads rarely track or retain
            data on fuel use for switcher locomotives because it represents a small percentage
            of total Class I locomotive fuel use. CARB said this tracking is only done as a part
            of a funded technology demonstration project and was unavailable for the
            cooperative agreement. Region 9 said the U.S. Department of Transportation does
            not require reporting annual fuel use for each locomotive. Region 9 and CARB said
            the OIG’s recommendation is not feasible because requiring railroads to track and
            report fuel use data would be very time consuming and costly.

            CARB said it relied on fuel use estimates from multiple correlative data sources
            that represented the best available information. CARB said it sought out and
            updated that data throughout the project to ensure the emission reduction
            estimates from the project were the most accurate possible. As a result, CARB
            said it does have assurance that the repowered locomotives are, in fact, achieving
            the range of projected emission reductions and health benefits.

OIG Response
            The OIG’s position remains unchanged. The OIG has already addressed CARB’s
            calculation methodology in the draft report. The OIG does not question the
            emission reduction calculation methodology or the use of estimated emission
            factors for NOx or particulate matter. Our issue is the use of estimated, rather than
            actual, fuel usage. We acknowledge that actual usage data does not currently exist
            and collecting actual usage data may be costly. However, “actual” emissions
            benefit calculations is expressly required under the cooperative agreement and
            BNSF can collect this data. It collected this data for the locomotives operating in
            Texas. While CARB stated that it has assurance that the repowered locomotives
            are achieving the range of projected reduction and health benefits. However, the
            range varies significantly. The variance between the high end and low end of the
            range is approximately 45 percent. Unless CARB can provide actual fuel usage,
            the EPA and the public do not have reasonable assurance that the project will
            achieve projected emissions reductions or expected environmental results and
            human-health benefits.


14-R-0130                                                                                     16
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1      Action Official          Date      Amount      Amount

     1        8     Recover the ineligible amount of $94,109 claimed          C             Region 9            12/31/13      $94         $94
                    under the cooperative agreement from CARB.                        Regional Administrator

     2        8     Require CARB to establish internal controls prior to      U             Region 9
                    any future awards, to ensure that contractor billings             Regional Administrator
                    comply with contract terms and conditions.

     3       12     Verify that CARB and BNSF scrap or                        O             Region 9            5/18/15
                    remanufacture the old engines in accordance with                  Regional Administrator
                    the November 18, 2013, agreement.

     4       12     Require CARB to provide documentation that the            O             Region 9            5/18/15
                    replaced engines were scrapped or                                 Regional Administrator
                    remanufactured in accordance with the
                    November 18, 2013, agreement.

     5       12     Recover the federal share of $8,771,891 claimed in        O             Region 9            5/18/15      $8,772
                    the event CARB does not scrap or remanufacture                    Regional Administrator
                    the engines in accordance with the November 18,
                    2013, agreement.

     6       12     Require CARB to revise the jobs reported as               C             Region 9            12/31/13
                    created or retained to reflect the number of jobs                 Regional Administrator
                    funded by the Recovery Act.

     7       15     Work with CARB to start collecting actual fuel            U             Region 9
                    usage data and develop a more accurate                            Regional Administrator
                    calculation of project results based on actual fuel
                    usage.

     8       15     Adjust DERA program reporting of CARB project             U             Region 9
                    results to reflect recalculated results.                          Regional Administrator




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





14-R-0130                                                                                                                                       17
                                                                                     Appendix A

               Agency’s Comments on Draft Report


                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       REGION 9
                                            75 Hawthorne Street
                                          San Francisco, CA 94105




                                            December 9, 2013

MEMORANDUM

SUBJECT: 	 Response to Office of Inspector General draft report Project No. OA-FY13-0210
           “Weaknesses Disclosed in California Air Resource Board’s Compliance with
           Laws, Regulations and Recovery Act Requirements,” September 25, 2013

FROM: 	        Thomas McCullough
               Assistant Regional Administrator

TO:    	       Robert Adachi
               Director, Forensic Audits
               Office of the Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the Environmental Protection Agency Region 9’s (Region 9)
overall position, along with our position on each of the report recommendations. For those
recommendations with which Region 9 agrees, we have provided high-level intended corrective
actions and estimated completion dates to the extent we can. For those report recommendations
with which Region 9 does not agree, we have explained our position and proposed alternatives to
the recommendations. For your consideration, we have included a Technical and Substantive
Comments Attachment 1 to supplement this response.

EPA REGION 9’S OVERALL POSITION
Region 9 shares your interest in ensuring we protect the integrity of our cooperative agreements
as we achieve environmental goals. We agree with most of the draft report recommendations,
and have noted the two recommendations with which we disagree. In addition, we have general
comments and recommended changes which are noted in the Technical and Substantive
Comments Attachment. For example, we propose the report title be revised with more neutral
wording to more accurately reflect the findings in the context of the positive results achieved.
We have moved forward to undertake many of the recommendations raised in your report, as
outlined below, and look forward to addressing and resolving other report recommendations.



14-R-0130                                                                                      18
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
No.      Recommendation                 High-Level Intended Corrective Actions              Estimated
                                                                                           Completion
 1    Recover the ineligible        Region 9 agrees with this recommendation and is        1st Quarter
      amount of $94,109             working with the California Air Resources Board        FY14
      claimed under the             (CARB) to return $94,109, or the full amount of the
      cooperative agreement         ineligible funds. However, minor inaccuracies exist
                                    in this section of the report (see the Technical and
                                    Substantive Comments Attachment for rewording
                                    suggestions).
 2    Require CalARB to             Region 9 agrees with this recommendation and           2nd Quarter
      establish internal controls   will work with CARB to ensure adequate internal        FY14
      prior to any future awards,   controls are put in place to ensure billing meets
      to ensure that contract       EPA’s requirements and terms and conditions.
      billings comply with
      contract terms and
      conditions.
 3    Require CalARB to scrap       Region 9 agrees with this recommendation. On           3rd Quarter
      or remanufacture the          November 18, 2013, EPA Region 9 received an            FY15 or no
      replaced engines in           executed Closeout Agreement between CARB and           later than
      accordance with the           Burlington Northern Santa Fe (BNSF) which              May 18,
      Energy Policy Act and the     details BNSF’s plan to scrap and/or remanufacture      2015
      terms and conditions of       all of the 11 old locomotive engines (see
      the cooperative               Attachment 2 Closeout Agreement between CARB
      agreement.                    and BNSF). EPA Region 9 and Headquarters staff
                                    supports this Agreement and will continue to work
                                    with CARB to track progress.
 4    Require CalARB to             See response to Recommendation 3 above. The            3rd Quarter
      provide documentation         Agreement between CARB and BNSF contains a             FY15 or no
      that the replaced engines     provision which states that CARB will meet the         later than
      were scrapped or              requirements of Programmatic term and condition        May 18,
      remanufactured.               P.10 (Scrappage and/or Remanufacture                   2015
                                    requirement). Region 9 will work with CARB to
                                    ensure that proper scrapping and/or
                                    remanufacturing of the eleven locomotives occurs.
 5    Recover $8,771,891 of the     Region 9 and Headquarters do not anticipate that       3rd Quarter
      remaining total federal       they will need to recover $8,771,891 based on the      FY15 or no
      share of the claimed          terms of the Closeout Agreement referenced             later than
      costs, unless CalARB          above. However, if BNSF does not properly scrap        May 18,
      complies with the             and/or remanufacture the engines pursuant to the       2015
      scrappage requirements.       terms of the aforementioned Agreement, Region 9
                                    will seek to recover grant funds from CARB.
 6    Require CalARB to revise      Region 9 agrees with this recommendation. It           1st Quarter
      the jobs reported as          should be noted that CARB has provided the             FY14
      created or retained to        revised jobs created and/or retained and Region 9
      reflect the number of jobs    is in the process of reporting such.
      funded by the Recovery
      Act.




14-R-0130                                                                                            19
Disagreements
No.       Recommendation                   Agency Explanation/ Response                    Proposed
                                                                                          Alternative
 7    Work with CalARB to          Region 9 and Headquarters do not agree with            Delete
      develop a more accurate      Chapter 5 since CARB provided the most accurate        Chapter 5.
      calculation of project       emission reductions. Additional information,
      results based on actual      including the industry standards for reporting these
      fuel usage.                  types of results, is provided in the Technical and
                                   Substantive Comments Attachment.
 8    Adjust DERA program          As mentioned above, Region 9 and Headquarters          Delete
      reporting of CalARB          do not agree with Chapter 5 since CARB provided        Chapter 5.
      project results to reflect   the most accurate emission reductions. Additional
      recalculated results.        information is provided in the Technical and
                                   Substantive Comments Attachment.

CONTACT INFORMATION

If you have any questions regarding this response, please contact Ben Machol, Manager, Clean
Energy and Climate Change Office, Air Division at (415) 972-3770 or Machol.Ben@EPA.gov.


Attachment 1: Technical and Substantive Comments
Attachment 2: Closeout Agreement with CARB and BNSF

cc: 

Deborah Jordan, Director, Air Division, U.S. EPA Region 9 


Ben Machol, Manager, Clean Energy and Climate Change Office, Air Division, U.S. EPA
Region 9

Jack Kitowski
Assistant Chief, Stationary Source Division
CA Air Resources Board
1001 I Street
PO Box 2815
Sacramento, CA 95812

Trina Martynowicz, Environmental Protection Specialist, Air-9, Region 9

Penelope McDaniel, Environmental Protection Specialist, Air-9, Region 9

Marie Ortesi, Team Lead, Audit Follow-up, MTSD-4-2, Region 9

Magdalen Mak, Audit Follow-up Coordinator, MTSD-4-2, Region 9

Lela Wong, Auditor, OIG



14-R-0130                                                                                          20
             Attachment 1: Technical and Substantive Comments 

 Response to Office of Inspector General (IG) Draft Report Project No. OA-FY13-
 0210 “Weaknesses Disclosed in California Air Resource Board’s Compliance with 

     Laws, Regulations and Recovery Act Requirements,” September 25, 2013 


EPA Region 9 and Headquarters are providing the following technical and substantive
corrections to the IG draft report:
    1.	 The project number is incorrectly referenced as “QA-FY13-0210” on the title page of the
        report and should be changed to “OA-FY13-0210.”

   2.	 The title of the report should be revised with more neutral wording to better reflect the
       findings in the context of the positive results achieved, for example: “Examination of the
       California Air Resource Board’s Compliance with Laws, Regulations and Recovery Act
       Requirements.”

   3.	 A more common acronym for the California Air Resources Board is “CARB,” not
       CalARB, therefore “CalARB” should be revised throughout the report to “CARB.”

   4.	 All sections of the report that discuss scrapping or remanufacturing the old locomotive
       engines should be revised to state “scrapping and/or remanufacturing,” since Burlington
       Northern Santa Fe Railway Company (BNSF) may choose to undertake either or both of
       these activities.

   5.	 CARB’s original workplan included repowering eight locomotives, as mentioned in the
       draft report. EPA recommends the IG include additional language to accurately highlight
       these significant achievements. For example, in Chapter 2’s Noteworthy Achievements,
       the following language should be added: “Because BNSF repowered three additional
       locomotives, significant air quality benefits were achieved by these emission reductions.
       The communities surrounding these rail yards will experience improved air quality due to
       the achievements by CARB, BNSF, and the engine manufacturer.”

   6.	 The final sentence in the third paragraph on page 6 of the report should list the correct
       funding amount that will be returned so that it reads: “CARB agreed with our issue on the
       remote-control system and is currently working with Region 9 to refund to the EPA the
       over-billed amount of $94,109.”

   7.	 On the top of page 8 of the report, the final sentence of the first paragraph should be
       changed to: “However, CARB has agreed to return the full ineligible amount of
       $94,109.”

   8.	 Under Recommendation number 1 on page 8 of the report, the IG recommends that the
       Region 9 Regional Administrator recover the ineligible amount of $94,109 claimed under
       the cooperative agreement. EPA Region 9 suggests adding the following information in
       response to that recommendation: “CARB agrees with this recommendation and will
       return the full ineligible amount of $94,109 to EPA Region 9.”


14-R-0130                                                                                        21
    9.	 Under Recommendation number 3 on page 12 of the report, the IG recommends that the
        Regional Administrator require CARB to scrap or remanufacture the replaced engines in
        accordance with the Energy Policy Act and the terms and conditions of the cooperative
        agreement. On November 18, 2013, EPA Region 9 received an executed Closeout
        Agreement between CARB and BNSF which details BNSF’s plan to scrap and/or
        remanufacture all of the 11 old locomotive engines (see Attachment 2 Closeout
        Agreement with CARB and BNSF.) EPA Region 9 and Headquarters support this
        agreement, and will continue to work with CARB to track progress to ensure that the
        terms and conditions of the cooperative agreement are met. If BNSF decides to
        remanufacture any locomotive engine BNSF will meet EPA’s standards for
        remanufactured engines. The final IG report should make note of the Closeout
        Agreement. In addition, Region 9 recommends that item number 3 on page 12 of the
        report be revised to read as follows: “The replaced engines will be scrapped and/or
        remanufactured pursuant to the terms delineated in the November 18, 2013 Closeout
        Agreement between CARB and BNSF.” EPA Region 9 and Headquarters has highly
        encouraged the old engines to be scrapped and/or remanufactured within one year of the
        signed date of this Agreement, though Region 9 agreed to allow these activities to occur
        within 18 months, or before May 18, 2015.

    10. Under Recommendation numbers 7 and 8 on page 14 of the report, the IG recommends
        that EPA work with CARB to develop a more accurate calculation of project results
        based on actual fuel usage and adjust the DERA program reporting to reflect these
        recalculated results. EPA Region 9 and Headquarters disagrees with the IG’s
        recommendations and fully supports CARB’s emission reduction calculation
        methodology, which is based on the most accurate and available information. CARB
        regularly updates their methodology and calculations for emission reductions and has
        extensive experience calculating emission reductions from in-use and currently operating
        locomotives. CARB provides approximately $90 million annually in grants for diesel
        emission reductions activities through their Carl Moyer Program, including switcher
        locomotives, similar to EPA’s DERA program and this specific cooperative agreement.1
        Therefore, CARB has a strong need to and has extensive past experience in accurately
        calculate emission reductions from diesel projects. Additional information on the way in
        which EPA and CARB calculate overall emission reductions, as well as typical industry
        practice for quantifying fuel use are provided below.

       EPA’s emission quantification models, including those used for setting emission
       standards for manufacturing locomotive engines, use various assumptions to generate the
       emission factors. Estimates, not actual or quantifiable emissions are used in EPA’s engine
       rules, as well as EPA’s Diesel Emission Quantifier (DEQ), the tool used for quantifying
       the emission reductions for Diesel Emission Reduction Act (DERA) projects. As the
       DEQ website states, this tool provides estimates of, not actual emission reductions.2

1
  CARB’s “Carl Moyer Memorial Air Quality Standards Attainment Program,”
http://www.arb.ca.gov/msprog/moyer/moyer.htm.
2
  EPA Nation Clean Diesel Campaign’s “Diesel Emission Quantifier,”
http://www.epa.gov/cleandiesel/quantifier/.


14-R-0130                                                                                      22
       Because switcher locomotives represent such a small percent of the Class 1 locomotive
       fleet’s fuel use and the cost to maintain such records is so high, the railroads rarely track
       or retain this data. Therefore, fuel usage estimates are used to quantify emission
       reductions. EPA’s methodology for calculating emission reductions describes how the
       agency generates estimated, but never actual emission rates.3

       The common Class 1 railroad practice of tracking and reporting fuel usage differs greatly
       from other DERA recipients, such as long-haul truck or school bus fleets. Railroad
       companies do not track nor regularly quantify the actual fuel consumed for each
       locomotive. Unlike diesel-fueled trucks or school buses that fuel at a specific fueling
       station owned by a third party, railroads have their own fueling stations located at the rail
       yard for both switcher and line-haul locomotives.

       Department of Transportation’s (DOT) Surface Transportation Board requires all Class 1
       railroads to report quarterly and annual fuel use for both switcher locomotives, which this
       cooperative agreement funded, as well as line-haul locomotives.4 DOT does not mandate
       reporting annual fuel use for each locomotive. BNSF switcher locomotives only
       consumed approximately 3.5% of the total fuel used for all BNSF locomotives in 2012.5
       Railroads purchase their fuel in bulk and quantify the amount of fuel used for all
       locomotives, hardly ever for an individual locomotive. In addition, it is not common
       industry practice for Class 1 railroads to monitor fuel consumption on a data log for a
       given switcher locomotive due to the high cost of tracking, monitoring and reporting.

       Meeting the IG’s recommendation is not feasible. Requiring railroads to track and report
       fuel use data would be very time consuming and costly and seen as a heavy
       administrative burden for the old dirtier and/or new cleaner locomotives. Based on
       common industry practices and the way in which EPA quantifies emission factors for
       engines used in locomotives, CARB provided emission reduction calculations that are
       acceptable. EPA Region 9 and Headquarters believes the emission reductions CARB
       provided are the most accurate and available, therefore Chapter 5 of this draft report
       should be deleted altogether. If the IG does not agree with Region 9’s conclusion to
       delete this section of the report, the Region will work with the IG to provide changes to
       ensure the accuracy of this chapter.




3
 EPA Office of Transportation and Air Quality’s “Emission Factors for Locomotives,” April 2009, 

http://www.epa.gov/otaq/regs/nonroad/locomotv/420f09025.pdf. 

4
  DOT Surface Transportation Board’s “Annual Reports R-1 Selected Schedules and Complete 

Annual Reports,” http://www.stb.dot.gov/stb/industry/econ_reports.html. 

5
  BNSF’s “Class I Railroad Annual Report Restatement To The Surface Transportation Board 

For the Year Ending December 31, 2012,” Page 91 “750. Consumption of Diesel Fuel,”

http://www.bnsf.com/about-bnsf/financial-information/surface-transportation-board-
reports/pdf/12R1.pdf.


14-R-0130                                                                                           23
                                                                                         Appendix B


                            CARB’s Comments on Draft Report

                                 Air Resources Board

                                        Mary D. Nichols, Chairman
                                         1001 I Street • P.O. Box 2815
   Matthew Rodriquez             Sacramento, California 95812 • www.arb.ca.gov     Edmund G. Brown Jr.
       Secretary for                                                                    Governor
 Environmental Protection



      November 25, 2013

      Mr. Robert Adachi

      Director, Forensic Audits

      U.S. Environmental Protection Agency

      Office of the Inspector General

      75 Hawthorne Street

      y!h Floor, M/C IGA-1

      San Francisco, California 94105


      Dear Mr. Adachi:

      The Air Resources Board (ARB) is documenting the actions we have taken to resolve
      the issues raised in the draft findings and recommendations of the U.S. Environmental
      Protection Agency (U.S. EPA) Office of Inspector General (OIG) audit report number
      OA-FY13-0210. The OIG audit covers the American Recovery and Reinvestment Act
      (ARRA) project award of $8.88 million to ARB under cooperative agreement
      2A-OOT13801. The project achieved its objective to cut air pollution and health risk near
      railyards in Southern California through incentives for BNSF Railway to replace old
      locomotive engines with cleaner models.

      Although we do not concur with the majority of the OIG conclusions, we appreciate that
      the discussion in the draft report accurately characterizes the information we provided to
      the auditors. ARB has addressed all of the issues raised by the OIG during the course
      of this audit. This letter provides documentation and our commitment to follow through
      with U.S. EPA to ensure the OIG concerns are fully resolved. I would like to specifically
      highlight an edit we are requesting to the title of the draft audit report to be more
      consistent with other published OIG reports- replacing "Weakness Disclosed in... " with
      "Examination of..." in the title. Thank you for considering this edit. In addition to this
      letter, please find copies of the following supporting documents enclosed:

      • Background and ARB's responses to each of the draft findings of the OIG audit.
      •	 The signed legal agreement between BNSF and ARB that requires BNSF to scrap or
         remanufacture eleven older BNSF locomotive engines by May 18, 2013.
      • Documentation of payment to ARB of $94,109 by BNSF on November 18, 2013.
      • ARB letter to U.S. EPA Region 9 addressing several audit issues.
      •	 The U.S. EPA OIG draft audit report with ARB's suggested updates and factual

         corrections identified in redline/strikeout format. 

      • ARB's signed management representation letter.

14-R-0130                                                                                 24
 Mr. Robert Adachi, Director
 November 25, 2013
 Page 2


 We remain convinced that the ARRA co-funded replacement of old engines with new
 genset models in eleven locomotives was a successful, cost-effective project with
 on-time delivery that continues to produce real emission reductions for communities
 near Southern California railyards.

 ARB appreciates the opportunity to provide the U.S. EPA OIG auditor with written
  responses to the draft audit. If you have any questions, please contact
  Mr. Jack Kitowski, Assistant Chief, Stationary Source Division at (916) 445-6102 or
 jkitowsk@arb.ca.gov.

 Sincerely,


    /\             ti),
 Richard W. Corey
 Executive Officer

 Enclosures

 cc: 	   Ms. Lela Wong, CPA, CFE
         Project Manager, Office of Inspector General
         U.S. Environmental Protection Agency
         75 Hawthorne Street
         San Francisco, California 94105

         Ms. Deborah Jordan, Director

         Air Division, Region 9

         U.S. Environmental Protection Agency
         75 Hawthorne Street
         San Francisco, California 94105

         Mr. Jack Kitowski

         Assistant Chief

         Stationary Source Division





14-R-0130                                                                               25
                             RESPONSES TO DRAFT FINDINGS


 I.     BACKGROUND

 On July 10, 2009, U.S. EPA awarded ARB $8.88 million in ARRA funding under cooperative
 agreement 2A-00T13801. The OIG audit project number is OA-FY13-0210. The purpose of
 the ARRA award was to cut railyard locomotive emissions in the Basin through the repower or
 replacement of old engines in eight (8) switch locomotives with much cleaner engines using
 “genset” technology.

 Genset switch locomotives, with the required use of ARB diesel, can reduce older
 switch locomotive diesel particulate matter (PM) and oxides of nitrogen (NOx) emissions by
 up to 90 percent, and significantly reduce the associated cancer risks, in and around California
 railyards.

 On October 1, 2009, ARB released a Request for Proposal (RFP) for qualifying
 railroads in the Basin to compete for the ARRA funding. ARB received two proposals in
 response to the ARB ARRA RFP from California’s two Class I railroads – BNSF and Union
 Pacific Railroad (UP).

 ARB awarded the project to BNSF at a total project cost of $15.73 million. BNSF matched
 $8.87 million of ARRA funds, which was less than the U.S. EPA ARRA award of $8.88M,
 with $6.86 million in private funding and proposed to repower a total of eleven locomotives
 because of a lower per locomotive cost estimate from the genset locomotive manufacturer
 National Railway Equipment Company (NREC).

 This project successfully repowered eleven locomotives by the ARRA project deadline of
 September 30, 2010, delivering significant health benefits from day one. This was
 accomplished by BNSF and NREC prioritizing and completing the genset switch locomotive
 production, testing, and delivery within three months – a process that normally takes 12 to 18
 months. We understand that this accomplishment makes the project part of the five percent
 of all ARRA projects nationwide that were completed on time.

 II.    ARB RESPONSES TO DRAFT OIG REPORT ITEMS

        A. Chapter 3: Costs Claimed Were Not in Accordance With Contract Provisions

              1. Summary. The OIG identified two specific issues relating to the contractor’s
 billings. The first issue is the contractor’s erroneous billing of a locomotive control system.
 The second issue is whether or not the project billing is subject to a per locomotive cost cap,
 or a total project cost cap, for federal funding. When taken together, these issues result in the
 OIG recommendation that U.S.EPA Region 9 recover an ineligible amount of $94,109. While
 ARB disagrees with the OIG’s conclusion that $94,109 of project cost is ineligible, we
 acknowledge the basis for the OIG’s rationale. We have invoiced and received payment from
 BNSF for the full amount of $94,109 (see enclosed).


14-R-0130                                                                                         26
            2. Discussion. ARB concurs that BNSF erroneously invoiced ARB for a remote
control system that was not used for the genset switch locomotives repowered under the
ARRA-funded project. This issue was acknowledged early in our discussions with U.S. EPA
Region 9 and the OIG. The second issue focused on whether or not the provisions within the
ARB/BNSF contract applied a “per locomotive” cost cap or a “total project” cost cap for the
federal share. While ARB is clearly in compliance with the U.S. EPA terms and conditions,
the difference comes in the interpretation of the ARB/BNSF contract. ARB believes it should
be given discretion as to the intent and interpretation of the ARB BNSF contract provisions.

As discussed in the draft audit report, ARB staff managed the ARB/BNSF contract based
on a not-to-exceed “total project” cost cap of $8,866,000, and specific per locomotive
cost share percentages.

ARB staff and BNSF regarded the reference in the contract to $1.43 million per genset switch
locomotive to be an estimate, with the understanding that each genset locomotive would have
unique design or mechanical differences (e.g., different number of traction motors, need for
Remote Control Locomotive (RCL) devices, etc.) that would result in differences in actual
costs. Thus, the total cost for each of the eleven genset switch locomotives would “average”
about $1.43 million, but the ARRA contribution in total could not exceed $8,866,000.

The $1.43 million per locomotive cost was clearly identified as an estimate in the
April 2009 ARB ARRA application and in the October 2009 BNSF proposal provided in
response to the ARB RFP. However, the tables in the ARB/BNSF contract did not include the
word “estimate,” which led the OIG to conclude that there was a $1.43 million per locomotive
cap.

Based on the OIG auditor’s interpretation that a per locomotive cost cap applies, ARB staff
agrees that there is a difference of $94,109, as compared to allowing a federal share of total
projects costs of up to $8.866 million. To implement the OIG auditor’s interpretation, ARB
staff sent an invoice to BNSF for the full $94,109 difference on October 18, 2013.

We would like to note, however, that ARB previously denied BNSF’s requests for
consideration of other eligible costs for nine of the genset switch locomotives with costs below
$1.43 million each. The other eligible costs that were incurred by BNSF during the project
were for locomotive paint and transportation. ARB denied BNSF’s request for consideration
of these other eligible costs because, at that time, those costs would have exceeded the total
project cost share cap of $8.87 million. Had the project expenditures been tracked and
approved based on a per locomotive cap, these other eligible expenses would have more than
offset the $94,109. U.S. EPA Region 9 has informed us that since the project file is closed,
there is no longer opportunity to provide additional documentation of these other eligible costs.

        B. Chapter 4: Noncompliance With Laws, Regulations and Cooperative
           Agreement Conditions

           1. Summary. The first issue is related to the requirement in the agreement
 between U.S. EPA and ARB that the old locomotive engines be scrapped, remanufactured, or


14-R-0130                                                                                        27
 an alternative approved by U.S. EPA. The second issue is related to the scope of the job
 creation estimates required by ARRA.
 As to the first issue, ARB was clear and transparent in its intent to allow BNSF to ban the old
 engines from operation in California as an alternative to scrappage, consistent with ARB’s
 approach on State incentive programs. This was premised on our mistaken belief that U.S.
 EPA staff supported the approach. We acknowledge that we should have put our approach in
 writing and requested written U.S. EPA approval to be certain all parties had the same
 understanding. ARB and BNSF have since signed a legal agreement that requires BNSF to
 scrap or remanufacture the old engines within 18 months to address the draft finding in the
 audit.

On the second issue, ARB concurs that the job creation estimates provided by BNSF and
reported by ARB inadvertently included all of the job creation benefits associated with the
project, rather than the prorated benefits attributable to only the federally- funded portion of
the project cost. ARB has reported the corrected numbers to U.S. EPA.

             2. Discussion. The draft OIG report questions ARB’s compliance with the terms
 and conditions of the ARRA cooperative agreement related to the scrap or remanufacture of the
 older locomotive engines. While the language of the cooperative agreement and the Energy
 Policy Act provides for the flexibility to include alternatives to scrappage, the OIG disagrees
 that the option to ban the older locomotive engines from operations in California is allowed
 under this flexibility.

 As documented by the OIG report, ARB included the ban option based on a verbal discussion
 with U.S. EPA Region 9 staff, after which ARB staff had the impression the ban option was
 acceptable. ARB was transparent about this approach – the ban option was clearly stated in
 the RFP for the project, and in the contract with BNSF. Both of these documents were
 provided to Region 9 staff for advance review, but no issues were raised about allowing this
 option.

 However, the OIG has clarified that even if U.S. EPA had provided formal approval, the ban
 option was not allowed under the Energy Policy Act, and would still have been subject to an
 audit finding.

 In response to this issue, ARB and BNSF have signed a written agreement committing BNSF
 to scrap or remanufacture the eleven older locomotive engines within 18 months. A copy of the
 agreement is attached to this letter. ARB has also forwarded a copy of the signed agreement to
 U.S. EPA Region 9. When BNSF completes the scrap and/or remanufacture, ARB will
 forward the appropriate documentation to U.S. EPA to demonstrate compliance.

 For the second issue in Chapter 4, the updated estimates of the jobs created by the ARRA
 funded portion of the project were relayed to U.S. EPA Region 9 and are included in this
 package. The enclosed letter to U.S. EPA Region 9 documents ARB’s
 formal transmittal of the updates. At this time, we understand that U.S. EPA Region 9 is
 working with headquarters to determine the appropriate forum to publish the revised job



14-R-0130                                                                                          28
 creation numbers since ARB can no longer access or update the project information on- line in
 the federal database.

        C. Chapter 5: CalARB Did Not Provide Actual Emissions Reduction Calculations

              1. Summary. The OIG draft report states that ARB does not have reasonable
 assurance that the repowered locomotives are achieving the projected emission reductions and
 human health benefits because actual fuel usage was not used to estimate emissions. ARB
 staff strongly disagrees. Actual fuel use was unavailable for this project, and is cost prohibitive
 for the railroads to collect on an ongoing basis for each locomotive. ARB staff relied on fuel
 use estimates from multiple correlative data sources that represented the best available
 information. ARB staff sought out and updated that data throughout the project to ensure the
 emission reduction estimates from the project were the most accurate possible. As a result,
 ARB does have assurance that the repowered locomotives are, in fact, achieving the range of
 projected emission reductions and health benefits.

             2. Discussion. To estimate the project’s emission reductions, ARB followed the
 industry standard practice by using U.S. EPA’s emission reduction calculation methodology
 (http://www.epa.gov/otaq/regs/nonroad/locomotv/420f09025.pdf), which relies on fuel
 consumption estimates and U.S. EPA-certified emission factors for NOx and PM. Class I
 railroads do not typically track or measure individual locomotive diesel fuel consumption in
 normal operation due to the high associated cost of about $50,000 per year per locomotive.
 This tracking is only done as a part of a funded technology demonstration project, and was
 unavailable for this ARRA grant. As a result, ARB relied on several robust data sources to
 estimate and corroborate the switch locomotive diesel fuel consumption figures used for this
 project in the final report.

 These data sources included information that increased the accuracy of the emission reduction
 estimates, but were not available to ARB in early 2009, the time of ARB’s original application
 to U.S. EPA. These data sources included additional fuel consumption data in BNSF’s grant
 application to ARB in late 2009, and data obtained in 2010 at the completion of a switch
 locomotive demonstration project.

 The OIG has recommended that we work with U.S. EPA to develop a more accurate
 calculation of project results based on actual fuel usage. ARB recognizes the value and is
 committed to obtaining the best available information to estimate emission reductions.

As such, ARB has continuously strived to develop new and innovative methodologies and has
continued to fund numerous technology demonstrations that provide measured fuel and
emissions data. We commit to continue to work with U.S. EPA to improve on the existing
calculation methodologies in order to more accurately calculate locomotive emissions.




14-R-0130                                                                                         29
                                                                              Appendix C

                                   Distribution
Regional Administrator, Region 9
Deputy Regional Administrator, Region 9
Assistant Regional Administrator, Region 9
Assistant Administrator for Air and Radiation
Director, Grants and Interagency Agreements Management Division, Office of Administration
        and Resources Management
Director, Office of Transportation and Air Quality, Office of Air and Radiation
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Audit Follow-Up Coordinator, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Grants and Debarment, Office of Administration and
        Resources Management
Audit Follow-Up Coordinator, Region 9
Chief, Administrative Services, California Air Resources Board




14-R-0130                                                                                   30
